Report No. IE-2008-003           April 15, 2008




        Observations and Critique of the

        DoD Task Force on Mental Health
                           DEPARTMENT OF DEFENSE
                          OFFICE OF INSPECTOR GENERAL




                                MISSION STATEMENT




The Office of the Inspector General promotes integrity, accountability, and improvement of
          Department of Defense personnel, programs and operations to support
                  the Department's mission and to serve the public interest.




                                                                                             D E PA R T M E N T O F D E F E N S E
                                                                                                                                    To report fraud, waste, mismanagement, and abuse of authority.


                                                                                             hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                    Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
                                        Observations and Critique of the DoD Task Force on
                                                                             Mental Health
                                                                                                     April 15, 2008
                            What Was Done.
 &Inspections
     Evaluations            This report summarizes Office of the Inspector General, DoD observations of the
                            DoD Task Force on Mental Health; the task force’s final report, “An Achievable
                            Vision,” June 2007; and the Secretary of the Defense’s “Report to Congress: The
                            Department of Defense Plan to Achieve the Vision of the DoD Task Force on
                            Mental Health,” September 2007.

                            The Secretary established the task force in May 2006 in response to the
                            requirements of Section 723 of the Fiscal Year 2006 National Defense
                            Authorization Act. Concurrently, on May 17, 2006, Senator Joseph Lieberman
                            requested that the Office of the Inspector General conduct a complete
        VISION              investigation of the military’s current mental health practices.

 We will evolve into the    The Office of the Inspector General arranged to have an Office of the Inspector
 premier Inspections &      General observer on the task force. Senator Lieberman’s staff agreed to an
Evaluations organization    Inspector General observer in lieu of a separate effort, and requested the Inspector
                            General’s critique of the task force’s final report.

                            The OIG DoD representative observed all of the open sessions, most of the closed
       MISSION              sessions, and accompanied the task force on several of their 39 site visits. The
                            OIG DoD observer did not make direct inputs to the task force’s report, nor did he
   The Directorate of       review the draft report. He did, however, provide advice, as appropriate, when
    Inspections and         the task force requested his input.
   Evaluations conducts
objective and independent
    customer-focused        What Was Identified.
management and program
                            The DoD Task Force on Mental Health fully satisfied the intent and requirements
  inspections addressing
                            of Section 723 of the Fiscal Year 2006 National Defense Authorization Act, and
    areas of interest to
                            address Senator Lieberman’s concerns expressed in a May 17, 2006 letter. The
    Congress and Ihc
                            task force report provided 15 findings and 95 recommendations to improve DoD’s
 Department of Defense,
                            mental health program for members of the Armed Forces and their families. The
   and provides timely
       findings and
                            Secretary of Defense’s report to Congress summarized ongoing activity and
recommendations leading
                            provided target completion dates for recommendations.
  10 positive changes in
       programs.
                            The Office of the Inspector General observer noted three topics raised by the task
                            force that did not receive significant mention in the report: suicide, inpatient
                            treatment, and physical evaluation boards/medical evaluation boards. These
                            issues deserve continued attention. However, we concluded that the task force’s
                            report and the report to Congress represent a comprehensive examination of
                            DoD’s mental health care programs for members of the Armed Forces and their
                            families. Management should organize and oversee resources to meet or improve
                            the completion target dates listed in the Secretary of Defense’s report to Congress.



                                                                    Department of Defense Office of Inspector General
                                                                                             Report No. IE-2008-003
                                                        i
GENERAL INFORMATION
Forward questions or comments concerning the report of the Observations and Critique of the
DoD Task Force on Mental Health and other activities conducted by the Inspections &
Evaluations Directorate to:

                                Inspections & Evaluations Directorate
                   Office of the Deputy Inspector General for Policy & Oversight
                     Office of Inspector General of the Department of Defense
                                        400 Army Navy Drive
                                   Arlington, Virginia 22202-4704
                                       crystalfocus@dodig.mil

An overview of the Inspector General of the Department of Defense mission and organizational
structure is available at http://www.dodig.mil.


TO REPORT FRAUD, WASTE, AND ABUSE, OR MISMANAGEMENT

Contact the DoD OIG Hotline by telephone at (800) 424-9098, bye-mail at hotline@dodig.mil
or in writing:
                                     Defense Hotline
                                     The Pentagon
                                     Washington, D. C.
                                     20301-1900


REPORT TRANSMITTAL
We are providing this report for information and use. We considered management comments to
our observations in preparing this final report. Comments provided by the Under Secretary of
Defense for Acquisition, Technology, and Logistics conformed to the requirements of DoD
Directive 7650.3, "Follow-up on General Accounting Office (GAO), DoD Inspector General
(DoD IG), and Internal Audit Reports," June 3, 2004. Therefore, additional comments are not

required. We appreciate courtesies   exte~~lS0n,               II



                                      Assistant Inspector General
                                     for Inspections and Evaluations




                                                           Department of Defense Office of Inspector General
                                                                                    Report No. IE-2008-005
Table of Contents

Executive Summary                                                                     i

Purpose and Background                                                                1

Review of the Task Force Report                                                       2

Issues Raised by the Task Force but Without
Significant Mention in the Report                                                     7

Appendixes
     A. Management Request                                                             9
     B. OIG Response to Management Request                                            11




                                              Department of Defense Office of Inspector General
                                                                       Report No. IE-2008-003
This Page Intentionally Left Blank




                           Department of Defense Office of Inspector General
                                                    Report No. IE-2008-003
Purpose and Background

Purpose of this Report. The purpose of this report is to summarize Office of the Inspector
General, DoD (OIG DoD) observations of the DoD Task Force on Mental Health (hereafter
referred to as the “task force”), the task force’s final report 1 ; and the Secretary of the Defense’s
(SecDef) “Report to Congress: The Department of Defense Plan to Achieve the Vision of the
DoD Task Force on Mental Health,” September 2007. 2 Because the two reports are readily
available, our critique will only comment on selected findings and recommendations. The OIG
DoD concludes that the DoD Task Force on Mental Health fully satisfied the intent and
requirements of Section 723 of the Fiscal Year (FY) 2006 National Defense Authorization Act
(NDAA). Moreover, we conclude that the task force’s recommendations address Senator
Lieberman’s concerns expressed in a May 17, 2006 letter to the OIG DoD (Appendix A).

Background. The FY 2006 NDAA directed the SecDef to “examine matters relating to mental
health and the Armed Forces.” The SecDef established the task force in May 2006 in response to
this Congressional mandate.

Concurrently, on May 17, 2006, Senator Joseph Lieberman requested that the OIG DoD
“conduct a complete investigation of the military’s current [mental health] practices…” In his
letter, Senator Lieberman expressed concern that current procedures “…are not meeting the
mental health needs of our servicemen and women.”

On June 12, 2007, the task force submitted its final report to the SecDef. The report provided 15
findings and 95 recommendations to improve DoD’s mental health program for members of the
Armed Forces and their families. In September 2007, SecDef submitted the DoD report to
Congress (hereafter referred to as the “report to Congress”). In that report it stated that the
Department “has embraced the vision and the spirit embodied in the recommendations” of the
task force’s report.

Role of the OIG DoD During the Task Force Process. Considering the potential for
duplication of effort between the then ongoing task force evaluation and Senator Lieberman’s
request, we arranged with the task force to have an OIG DoD observer on the task force.
Subsequently, during a meeting with the then Acting IG DoD, Senator Lieberman’s staff agreed
to an IG observer in lieu of a separate IG effort. As a condition, however, the Senator’s staff
requested the IG's critique of the task force’s final report; hence, this report.

The OIG DoD representative observed all of the open sessions and most of the closed sessions
and accompanied the task force on field trips. The OIG DoD observer did not make direct inputs
to the task force’s report, nor did he review the draft report. He did, however, provide advice, as
appropriate, when the task force requested his input.


1
    A copy of the Task Force’s final report can be found at http://www.ha.osd.mil/dhb/mhtf/MHTF-Report-Final.pdf
2
    A copy of the DoD report to Congress can be found at http://www.ha.osd.mil/asd/downloads/MHTF-Report-to-
    Congress.pdf
                                                                      Department of Defense Office of Inspector General
                                                                                               Report No. IE-2008-003
                                                         1
Review of the Task Force Report

The task force report documents their examination of DoD’s mental health care programs for
members of the Armed Forces and their families, with special consideration of mental health
issues related to Operations Enduring Freedom (OEF) and Iraqi Freedom (OIF).

The task force based its work on its vision for transforming the military mental health system by
identifying the following four interconnected mental health goals on which they structured their
review and report:

   •   a culture of support for psychological health,
   •   a full continuum of excellent care,
   •   sufficient and appropriate resources, and
   •   visible and empowered leaders.

The task force final report represents the results of a comprehensive process to analyze research
data, perceptions, and ideas. The task force conducted 39 site visits—25 locations within the
United States and 14 locations overseas. During these visits, task force members interviewed
subject matter experts, commanders, military program managers, patients, family members,
providers, medical researchers, advocates, and others.

The task force established two basic notions to anchor their debate and help distil the data
collected and discussed:

   •   DoD’s mental health mission has fundamentally changed in the past few years.
   •   Mental health includes "resiliency” and personal well-being, not just the presence or lack
       of mental illness.

The task force included 15 findings with 89 associated recommendations in the final report. The
task force also provided six recommendations, not related to a specific finding, concerning three
topics for special consideration: Reserve Components; Female Service Members and Veterans;
and Traumatic Brain Injury.

OIG Comments on Task Force Findings and Recommendations. In order to demonstrate the
wide range of the review, we will comment on the task force’s findings and recommendations
related to the previously mentioned four interconnected task force goals.

Goal 1. “A culture of support for psychological health.” Task force findings addressed
culture, access to professional care, training, policy, and existing procedures. The finding
concerning stigma is especially relevant.

   Finding: “Stigma in the military remains pervasive and often prevents Service members
   from seeking needed care.”

                                                             Department of Defense Office of Inspector General
                                                                                      Report No. IE-2008-003
                                                   2
There is no empirical data to tell us how many military members who have emotional or mental
health problems avoided seeking mental health care. There is a cultural reluctance to self-
disclose a condition that may jeopardize one’s fitness for duty. The task force relied somewhat
on the Mental Health Advisory Team (MHAT) reports--reports derived from OEF/OIF data—as
one possible inference for this unknown number. The MHAT reports are very thorough, but are
inherently stand-alone, short-term accounts. Hence, the task force advocates the need for “post-
deployment longitudinal studies.” These studies will require a comprehensive system of Post-
Deployment Health Assessments and Re-Assessments and recognition of the pervasive nature of
stigma. Likewise, DoD should include a universal population of military members and not limit
the study to just those who served in combat zones. DoD should consider additional efforts to
destigmatize mental health conditions and to alleviate patient confidentiality concerns over the
potential release of “privacy” information.

      Recommendation: “The Department of Defense should implement an anti-stigma public
      education campaign, using evidence-based techniques to provide factual information about
      mental disorders.” (Recommendation 5.1.1.1)

For military members with psychological health problems, stigma is the primary barrier to self-
disclosing these problems and seeking mental health care. The task force also recognized that its
assessment and scope was not just about OEF and OIF experiences and concerns. It is clear that
the intent of the task force was to recommend long-term solutions, applicable to both wartime
and peacetime scenarios and effects. Addressing the strategic view of mental disorders in an
anti-stigma public education campaign will be a challenge while combat “signature mental
injuries” dominate public attention. For example, one study 3 concluded that 13 percent of all
military hospitalizations and 28 percent of all military hospital bed days from 1990 to 1999
(relative peacetime) were due to mental disorders. Any public mental health campaign must
delicately balance and maintain attention on the disorders amplified in wartime, but quietly
persist in peacetime. As stated in the report to Congress, DoD plans to review literature and
develop anti-stigma campaign initiatives through a DoD Center of Excellence.

DoD has a successful history of transforming culture. An effective anti-stigma campaign should
follow the models used for race relations, sexual harassment, EEO, smoking, seat belts, and
others. If military personnel, especially commanders and leaders, are aware of the indicators of
mental health problems, it is more likely that those who need help will find support, treatment,
and maintenance.

Goal 2. “A full continuum of excellent care.” Task force findings uncovered gaps in service,
continuity of care, treatment types and monitoring, and aid for family members.

      Finding: “There are not sufficient mechanisms in place to assure the use of evidence-based
      treatments or the monitoring of treatment effectiveness.”

Like stigma, success in psychiatric medicine is difficult to measure. There are no x-rays, lab
tests, or surgeries to provide immediate feedback. Confidentiality complicates and can threaten
3
    “Millennium Cohort”, Journal of Clinical Epidemiology 60
                                                               Department of Defense Office of Inspector General
                                                                                        Report No. IE-2008-003
                                                        3
continuity of care. There is no universal method to track patient outcomes within a Service or
across Services. There is no objective source of information that universally addresses quality or
effectiveness of care. If patients are dissatisfied with either, they are likely to “vote with their
feet” (terminate treatment), which is one non-intrusive measurement that could initiate a clinical
discussion on outcome-based improvements. While it is commendable that the task force did not
ignore this issue, health care program managers need to do more to monitor, oversee, and
improve effectiveness and make psychological assessments a normal part of patient care and
military life.

   Recommendation: “The Department of Defense should create (and continually validate) a
   measurement tool that will inform the military Services of Service members’ psychological
   strengths and weaknesses at accession. This tool will help direct training and educational
   programs tailored to the Service members’ needs. It will also provide data for longitudinal
   studies assessing the efficacy of and guiding the improvement of training programs.”
   (5.2.3.12)

This is a new “intervention” that recognizes individuals have unique strengths and
vulnerabilities. The report notes this is an attempt to influence an oddity within the military
environment: “little attention is paid to enhancing cognitive fitness and psychological
resilience—the attributes most celebrated in the military’s finest leaders and combat heroes.” A
tool is needed for “cognitive” testing, and all recruits should be tested to “baseline” their
cognitive abilities in order to validate a Service-connected traumatic brain injury. To implement
this recommendation, DoD plans to accelerate the use of the Health Assessment Review Tool-
Accession (HART-A).

Personal resilience and psychological strength varies by individual, based on genetic makeup and
life experiences. For example, two soldiers experiencing the same horrific event, with similar
physical injures will process the trauma differently and at dissimilar life stages. This
recommendation will help leaders understand that resilience varies among individuals.

Goal 3. “Sufficient and appropriate resources.” Task force findings addressed the adequacy of
fiscal resources, mental health professional positions, military treatment facilities, and TRICARE
network benefits for psychological health. The finding concerning the existing and projected
staffing of active duty mental health professionals relates to Senator Lieberman’s concern.

   Finding: “The number of active duty mental health professionals is insufficient and likely to
   decrease without substantial intervention.”

This finding noted that uniformed mental health workers are the best resource to educate
commanders and make crucial judgments concerning an individual’s health readiness,
deployment, and retention status. The task force believes that military mental health providers
have better credibility with Service members then civilian providers and, thus, they can foster a
strong therapeutic relationship with the military member. Notwithstanding this perceived
advantage, there is no discussion or recommendation in either report regarding how the use of
TRICARE services would reduce stigma. Since active duty can use TRICARE under certain
circumstances, DoD should further expand this option to leverage the availability of civilian

                                                             Department of Defense Office of Inspector General
                                                                                      Report No. IE-2008-003
                                                 4
mental health providers and reduce stigma concerns. As noted in the report to Congress, DoD
will consider “TRICARE enhancements [to] include training in the area of PTSD [post-traumatic
stress disorder] to TRICARE network providers to ensure that our military community receives
the most up-to-date treatment available for PTSD related to combat and military operations.”

   Recommendation: “The Department of Defense should make recruiting and retaining
   mental health professionals in the military a high priority in decisions to eliminate positions
   or convert positions to civilian status. An adequate number of billets must be allocated to
   mental health professionals to ensure the increase in providers recommended elsewhere in
   this report includes an adequate balance of military and civilian mental health
   professionals.” (5.3.3.5)

Military mental health professionals are often in the best position to make complex
determinations regarding deployability and retention. However, this recommendation may
unintentionally overshadow the importance of the “adequate balance” of civilians in military
mental health settings. Civilian providers, by nature of their non-uniformed status, may be in a
better position to initially create the confidence and trust necessary for effective psychotherapy.
Network mental health providers should be an option for military members if access barriers (to
include stigma) delay or deny prompt care, similar to other TRICARE specialty referrals.

Goal 4. “Visible and empowered leaders.” Task force findings for the final goal highlighted
that cooperation and collaboration among the many agencies tasked to provide psychological
support throughout the Department are insufficient.

   Finding: “Provision of a continuum of support for psychological health for military
   members and their families depends on the cooperation of many organizations with different
   authority structures and funding streams.”

Leadership is the key element that drives any military operation, policy, or program. This
finding should prompt a systemic process to educate and train all military personnel—leaders,
Service members, medical staff—and community support providers to enhance general
awareness of issues related to mental health access and treatment. The complexity involved with
the natural tensions of confidentiality and care continuity make cooperation, coordination, and
accountability difficult to achieve. However, many non-clinical leaders are reluctant to treat
discussions of mental health as they would conversations about physical care. The task force
noted that a DoD-wide strategic plan could address how the many mental health and support
agencies should collectively and effectively collaborate for delivery of care.

   Recommendations: “Each military Service’s Inspector General staff should include subject-
   matter experts on programs related to psychological health to ensure compliance with the
   strategic plan. Each military Service’s Medical Inspector General staff should include
   subject-matter experts on programs related to psychological health to ensure compliance
   with the strategic plan.” (5.4.1.8/9)

The military Services have a strong history of successful oversight by Inspectors General.
Inspectors General trained on mental health programs could provide proper oversight of the

                                                             Department of Defense Office of Inspector General
                                                                                      Report No. IE-2008-003
                                                 5
Service-level strategic plan for the delivery of care. Inspector General oversight will create
needed command and leadership attention to help ensure effective and efficient installation-level
management of mental health care.




                                                            Department of Defense Office of Inspector General
                                                                                     Report No. IE-2008-003
                                                6
Issues Raised by the Task Force but Without
Significant Mention in the Report

The OIG DoD representative noted three topics reviewed by the task force that did not receive
coverage in the report: suicide, inpatient treatment, and physical/medical evaluation boards.

Suicide. The task force’s report does not specifically address the topic of suicide. Military
mental health professionals consider suicide prevention a non-clinical, leadership issue, and
suggest that unit leaders are better positioned to notice behavioral indicators and suicidal
tendencies. The task force perhaps rightly avoided a major discussion on suicide because many
non-medical leaders incorrectly use suicide rates as a “barometer” of their unit’s (or Service’s)
mental health. For example, even though the Army’s 2006 suicide rate was the highest in over
20 years, the Army’s mental health community does not see this as a crisis—but many non-
clinical military and political leaders have raised the alarm.

Completed suicide is the sentinel tragic event within mental health care since almost all suicides
involve a mental health disorder component. Stigma usually aggravates prevention and
treatment options. Within the Army, women dominate suicide attempts. However, for young
enlisted males, suicide is the second leading cause of all deaths for this group. According to the
2005 Army Suicide Event Report, 96 percent of all completed soldier suicides in calendar year
2005 were men. As implied in this Army report, the young male population is also most
impacted by stigma and least likely to ask for help with any mental disorder or brain injury. For
example, as patients in military mental health clinics, female counterparts out-number male
Service members 3:1. The male military population, overall, outnumbers females 4:1.
Empirically measured, the young male cohort is not getting the tailored outreach they need with
respect to suicide.

Because suicide is generally a collision of many complex factors—depression, stress, post-
traumatic stress disorder, interpersonal problems, family conflicts, stigma, resiliency, and other
factors—a “special topic” in the report acknowledging this fact with corollary recommendations
would have been beneficial. Meanwhile, as published in a November 18, 2007, Journal of the
American Medical Association article, “Longitudinal Assessment of Mental Health Problems
Among Active and Reserve Component Soldiers Returning From the Iraq War,” offers credible
data and findings on the issues of post-deployment factors and the importance of screening
programs and the referral and use of mental health services.

Inpatient Treatment. The task force’s report does not discuss inpatient psychiatric treatment
(other than a brief discussion related to shortfalls in substance abuse treatment). Generally,
inpatient care is limited to small, yet critical, goals. For example, one key goal is simply patient
stabilization. It would have been helpful for the task force to examine inpatient care in the
military system, given the current public debate in the media and among government officials,
commissions, and study groups. Most patients currently seen at Walter Reed’s Ward 54
(inpatient care) are combat veterans recently returned from Iraq. Major media outlets have
published less than positive stories regarding military inpatient (and outpatient) psychiatric care.

                                                              Department of Defense Office of Inspector General
                                                                                       Report No. IE-2008-003
                                                  7
Diagnoses of military inpatients with certain psychiatric disorders trigger Service disability
evaluation systems and lead to discharge actions. The public debate suggests that many of these
service discharges do not properly weigh Service-connected disorders (e.g., post-traumatic stress
disorder or depression). There have been cases of Service members claiming their Service
connected “unseen wound” was improperly diagnosed or misdiagnosed during their inpatient
status, resulting in discharge, financial consequences, and missed treatment (see multiple internet
sites under “unseen wounds military”). A discussion by the task force on this topic would have
been helpful.

Physical Evaluation Board (PEB) / Medical Evaluation Board (MEB). The PEB and MEB
process is a significant bureaucratic challenge to injured and ill Service members. Board
decisions greatly affect future benefits, but frequently yield results that are not intuitive.
Allegations of unfair PEB and MEB decisions often relate to mental health diagnosis because
service members are less likely to contest fit-for-duty or disability decisions based on visual
injury or laboratory data. It is inherently more difficult to prove or disprove “injury” caused by
psychic trauma. In addition, PEB and MEB adjudication will not include unreported or
undiagnosed brain injury or post-traumatic stress, again affecting future benefits.

Summary. Taken together, the task force’s report and the report to Congress represent a
comprehensive examination of DoD’s mental health care programs for members of the Armed
Forces and their families. In general, the OIG DoD concurs with the intent of the task force’s
recommendations and with DoD’s plan to implement solutions. Management should organize
and oversee resources to meet or improve the completion target dates listed in the report to
Congress. As noted, however, additional topics—suicide, inpatient treatment, and PEB/MEB
process—deserve additional attention.




                                                             Department of Defense Office of Inspector General
                                                                                      Report No. IE-2008-003
                                                 8
Appendix A–Management Request


   JOSEPH I. LIEBERMAN
       CONNl!CTlC'"




                                             'lanitEd ~tatC5           ~cnat(
                                                     WASHINGTON. DC 20S10




                                                        May 17, 2006


                 Mr. Thomas F. Gimble
                 Principle Deputy [nspector General
                 Deparoncnt of Defense Inspector General
                 400 Anny Navy Drive (Room 801)
                 Arlington, VA 22202-4704

                 Dear Mr. Gimble,

                         This letter reflects my deep concern about a recent series of articles published in
                 the Hanford COl/rant detailing case-studies of servicemen that were deployed overseas
                 despite manifesting strong signs of mental illness. I am asking that you conduct an
                 investigation into the military's eurrent practices for conducting mental healtb screenings
                 with deploying servicemen and women. Through Freedom oflnfonnation Act (FOlA)
                 requests and over 100 interviews, the Couranl identified 11 service members who
                 committed suicide in 2004 and 2005 after being kept in Iraq and Afghanistan despite
                 repeated signs of psychological disorders prior to, and during, deployment in combat
                 zones. J am concerned thai the military's current procedures for screening tbose being
                 deployed and systematically referring them for evaluations and treatment are not meeting
                 the health needs of our servicemen and women.

                        1 am aware of the extreme pressures our servicemen and women are under in Iraq
                 and Afghanistan and that many exhibit signs of distress and discomfort on a daily basis. I
                 also know that the military healthcare providers, supervisors, and peers are important
                 sources of information in determining when an individual needs additional support and
                 psychological intervention. However, the articles in the Hartford Couranl detailed
                 numerous case examples of soldiers who had long histories of serious mental illness, sucb
                 as bipolar disorder alld who resided in wstitutional settings, who were deployed illto
                 combat situations.

                         The National Defense Authorization Act for Fiscal Year 1998 (pL 105.85, Sect.
                 765), required tbe military to conduct an "assessment of mental health" for all deploying
                 troops. The assessment cUlTently being used is a single mental health question on a pre-
                 deployment fonn filled out by service members. However, only 6.5% of those indicating
                 mental health problems were referred for mental health evaluatiolts from March 2003 to
                 October 2005. Unfonunately, the army has also seen a resurgence in its suicide rate with
                 rates of20 per 100,000 deployed inlraq. In the general US population, the Centers for
                 Disease Control and Prevention estimate that there are 11 deaths per 100,000 Americans.
                 Clearly, our soldiers are experiencing unusually high levels of stress, but if the military is




                                                                               Department of Defense Office of Inspector General
                                                                                                        Report No. IE-2008-003
                                                               9
PAGE2

doing an inadequale job of assessing the severity of menial health problems in those
deploying, and then placing them in further danger, their lives are at even greater risk.

        1 believe Ibat it is essential for you 10 cOllduct a C{lmplete investigation of the
military's current practices in screening those lbat are beiog deployed and redeployed so
chat military leadership and Congress can ascertain whether or not practices and proIOOO!S
require revision. As a member of the Senate Anned Services Committee, I believe litis
analysis will provide information necessary to oonduct appropriate oversight functions.
appreciate your attention to this matter and look forward to a prompt response.

                                        . wely,    ~.      /


                                       o   Ph1.L;~
                                   ~o" .. EDSTATESSENATOR




                                                           Department of Defense Office of Inspector General
                                                                                    Report No. IE-2008-003
                                           10
Appendix B–OIG Response to Management Request



                                        INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE
                                          400 ARMY NAV'f ORr/E
                                     ARlINGTON. VlRGINIA22202..c704


                                                                                   APi< 1 1 alJIl

       The Honorable Joseph L Lieberman
       United States Senate
       Washington, D.C. 20510-0703

        Dear Senator Lieberman:

                 This is in response to your letter dated May 17,2006, requesting that 'we
        "conduct an investigation into the military's current practices for conducting mOllal
        health screenings with deploying servicemen and women." Concurrent with your
        request, DoD established the Task Force on Mental Health in response to provisions in
        the National Defense Authorization Act for FY 2006. Considering the potential for
        duplication ofthis effort and your request, your office agreed to have the Inspector
        General observe the task force process. As a condition, your staff requested our critique
        of the task force's efforts and their final report.

                 Our representative to the task force observed all open sessions, most closed
        sessions, and accompanied task force members on site visits. In June 2007, the task
        force sent its final report to the Secretary of Defense. and in September 2007, the
        Secretary sent his report to Congress.

                 We concluded that the task force addressed the concerns expressed in your
        letter. Moreover, we concluded that the task force's recommendations and the
        Secretary's response fully satisfied the intent and requirements of Section 723 of the
        Fiscal Year 2006 National Defense Authorization Act.

                Should you have any questions regarding this matter, please contact me at
        (703) 604-8324.

                                                       Sincerely,



                                                       o            ,
                                                   . tant Inspector General
                                                     tions and Congressional Liaison




                                                                    Department of Defense Office of Inspector General
                                                                                             Report No. IE-2008-003
                                                  11
The Mission of the OIG DoD



The Office of the Inspector General promotes integrity, accountability, and improvement of
Department of Defense personnel, programs, and operations to support the Department’s mission
and to serve the public interest.




Team Members



The Inspections and Evaluations Directorate, Office of the Deputy Inspector General for Policy
and Oversight, Office of the Inspector General for the Department of Defense prepared this
report. Personnel who contributed to the report include Wm. Brem Morrison – Assistant
Inspector General, George P. Marquardt – Division Chief, and Lieutenant Colonel
Steven P. Luke (USAF) – OIG DoD Representative to the Task Force.




Additional Report Copies



Contact us by phone, fax, or e-mail:
  Inspections and Evaluations directorate, Deputy Inspector General for Policy and Oversight
  COM: 703.604.9130 (DSN664.9130)
  FAX: 703.604.9769
  E-MAIL: crystalfocus@dodig.mil
  Electronic version available at: www.dodig.mil/Inspections/IE/Reports
                           DEPARTMENT OF DEFENSE
                          OFFICE OF INSPECTOR GENERAL




                                MISSION STATEMENT




The Office of the Inspector General promotes integrity, accountability, and improvement of
          Department of Defense personnel, programs and operations to support
                  the Department's mission and to serve the public interest.




                                                                                             D E PA R T M E N T O F D E F E N S E
                                                                                                                                    To report fraud, waste, mismanagement, and abuse of authority.


                                                                                             hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                    Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
